No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

KELLY FRITHIOF SUNDBERG,
Petitioner,
-ye

HAROLD OREOL,
Executive Director of Patton State Hospital,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner was appointed counsel during proceedings in the Southern District

of California and while Petitioner’s case was pending before the Ninth Circuit.

 

Dated: d
ae 8s w David J. Zugman

Burcham & Zugman

402 West Broadway, Suite 1130
San Diego, CA 92101

Tel: (619) 699-5931

Email: dzugman@gmail.com
Attorney for Sundberg
